                                                          NATIONAL SCIENCE FOUNDATlQPl
                                                               4201 WILSON BOULEVARD
                                                              ARLINGTON, VIRGINIA 22230



                                                                    September 15, 1998
                                                                   -.> ,:,
                                                                       .. P:
                           OFFICE OF
                       INSPECTOR GENERAL




    I



    1   --   .
                      To:


                 - -- , -From:- -   --   -
                                             6
                                             d
                                                           cting Assistant Inspector General for Audit
                                                             pecial Agent-in-Charge, Investigations Sectio

                                                               p rial-Agent,-Inves tigations Section_-   - -
                                                                                                               w
                                                                                                               --   _-   -   - _- _   _ __   __ _
I                     Re:                    Case Closeout and Referral

                                                                         an anonymous letter citing various problems with
                      the way                                         andled and managed NSF award no                   3.
                                                                              including the PI on the NSF award and the
                                                                         the veracity of these allegations.

                      While conducting my review of documents related to the grant, 1determined that g         h     t
                      be a good candidate for an audit rather than a criminal investigation for various reasons: First,
                      there appears to be no clear system of records at
                                                                             h econd, a past investigation (not by
                      NSF) revealed that h e r business managers at t e school had embezzled funds.

                      Audit rnight want to consider reviewing this institution to insure that proper accounting
                      procedures are in place, and that NSF funds are being expendedin accordance with NSF and
                      other federal regulations. I have financial documents        fro-hich     might be helpful for a
                      "desk" type audit.
